la
APPENDIX A
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
No. 50 MAL 2019
JENN-CHING LUO, Petitioner
v.
LOWE’S HOME CENTERS, LLC,
JAMES R. WALTERS, AND CHRIS S. ERNEST,
Respondents
Application for Reconsideration
Filed: July 25, 2019

ORDER
PER CURIAM
AND NOW, this 25th day of July, 2019, the
Application for Reconsideration is denied.

2a
APPENDIX B
IN THE SUPREME COURT OF PENNSYLVANIA
MIDDLE DISTRICT
No. 50 MAL 2019
JENN-CHING LUO, Petitioner
v.
LOWE’S HOME CENTERS, LLC,
JAMES R. WALTERS, AND CHRIS S. ERNEST,
Respondents
Petition for Allowance of Appeal from
the Order of the Superior Court
Filed: June 18, 2019

ORDER
PER CURIAM
AND NOW, this 18th day of June, 2019, the
Petition for Allowance of Appeal is DENIED.

3a
APPENDIX C
IN THE SUPERIOR COURT OF PENNSYLVANIA
EASTERN DISTRICT
JENN-CHING LUO, Appellant
v.
LOWE'S HOME CENTERS, LLC, JAMES
R. WALTERS, AND CHRIS S. ERNEST
No. 284 EDA 2018
Filed: December 28, 2018
ORDER
IT IS HEREBY ORDERED:
THAT the application filed November 15, 2018,
requesting reargument of the decision dated
November 2, 2018, is DENIED.
PER CURIAM

4a
APPENDIX D
NON-PRECEDENTIAL DECISION SEE SUPERIOR COURT I.O.P. 65.37
IN THE SUPERIOR COURT OF PENNSYLVANIA
JENN-CHING LUO, Appellant
v.
LOWE'S HOME CENTERS, LLC, JAMES
R. WALTERS, AND CHRIS S. ERNEST
No. 284 EDA 2018
Appeal from the Judgment Entered February 12,
2018 In the Court of Common Pleas of Chester
County Civil Division at No(s): 2014-09864
Filed: November 2, 2018
BEFORE: BENDER, P.J.E., BOWES, J„ and
PANELLA, J.
MEMORANDUM BY PANELLA, J.
Jenn-Ching Luo appeals pro se from the
judgment1 entered in the Chester County Court of
1 Appellant purports to appeal, in part, from the order entered
December 27, 2017, denying his petition to vacate an
arbitration award. See Notice of Appeal, 1/18/18. However, “a
court order denying a petition to vacate ... is not an appealable
order.” Dunlap by Hoffman, State Farm Ins. Co., 546 A.2d
1209, 1210 (Pa. Super. 1988). Rather it is the final judgment
entered following the denial of this petition which is

5a
Common Pleas following the trial court’s denial of
his petition to vacate his arbitration award.
Appellant raises many, many challenges to the trial
court’s rulings over the three-year course of this
matter. Given the woeful state of Appellant’s brief,
we dismiss this appeal.
Due to our disposition, a detailed recitation of the
facts and procedural history of this case is
unnecessary. Briefly, in the spring of 2014,
Appellant contracted with Appellee, Lowe’s Home
Centers, LLC (“Lowe’s”) for the installation of a new
residential roof, skylights, and gutters. The contract
between Appellant and Lowe’s contained a standard
arbitration clause. Lowe’s hired Kolb Roofing
Company, owned by Appellee, James R. Walters, to
perform the work described in Appellant’s
installation contract.
Walters completed the work on Appellant’s
property on June 3, 2014. Following the installation,
Appellant contacted Lowe’s claiming Walters failure
to adequately protect against a brief rainstorm
during the installation damaged his property. Lowe’s
contracted with Appellee, Charles (sic Chris) S.
Ernest, to evaluate the alleged damages to
Appellant’s property. However, when Ernest’s
estimate of the damage did not meet Appellant’s
expectations, Appellant filed suit against Lowe’s,
Walters, and Ernest in the Chester County Court of
appealable. See id., at 1211. Judgment was not entered until
February 12, 2018, making Appellant’s notice of appeal
prematurely filed. However, as judgment has been entered in
this matter, we will treat the notice of appeal previously filed in
this case as filed after the entry of judgment. See Pa.R.A.P.
905(a)(5). The appeals statement has been corrected.

6a
Common Pleas.
Following a series of motions and trial court
rulings, this case proceeded to arbitration on July 7,
2017. The arbitrator found in favor of Appellant and
against Lowe’s and Walters in the amount of
$2,034.07.2 As the arbitrator’s award was
significantly below Appellant’s requested damages of
$451,000.00, Appellant filed a petition to vacate the
arbitration award. This appeal follows the trial
court’s denial of his petition to vacate, and
subsequent confirmation, of his arbitration award.
Preliminarily, we note Appellant raises a
staggering 23 issues in his appellate brief. Issue
selection is a key hallmark of appellate advocacy.
Justice Robert H. Jackson warned of the dangers of
this shotgun approach many years ago:
Legal contentions, like the currency,
depreciate through overissue. The mind of
an appellate judge is habitually receptive
to the suggestion that a lower court
committed an error. But receptiveness
declines as the number of assigned errors
increases. Multiplicity hints at a lack of
confidence in any one. Of course, I have not
forgotten the reluctance with which a
lawyer abandons even the weakest point
lest it prove alluring to the same kind of
judge. But experience on the bench
convinces me that multiplying assignments
of error will dilute and weaken a good case
and will not save a bad one.
2 The arbitrator found that Ernest was not liable to
Appellant.

7a
Ruggero J. Aldisert, J. “Winning on Appeal: Better
Briefs and Oral Argument,” at 130 (2d ed. 2003)
(quoting Robert H. Jackson, “Advocacy Before the
United States Supreme Court,” 37 Cornell L.Q. 1, 5
(1951)). This “much quoted” advice, unfortunately,
“often rings hollow’....” Commonwealth v. Robinson,
864 A.2d 460, 480 n.28 (Pa. 2004) (citing Ruggero J.
Aldisert, J. “The Appellate Bar: Professional
Competence and Professional Responsibility-A View
From the Jaundiced Eye of the Appellate Judge,” 11
Cap. U.L. Rev. 445, 458 (1982)). But its importance
cannot be overstated. See, e.g., Jones v. Barnes, 463
U.S. 745, 751-752 (1983) (“Experienced advocates
since time beyond memory emphasized the
importance of winnowing out weaker arguments on
appeal and focusing on one central issue if possible,
or at most on a few key issues.”); Howard v.
Gramley, 225 F.3d 784, 791 (7th Cir. 2000) (“[0]ne of
the most important parts of appellate advocacy is the
selection of the proper claims to urge on appeal.
Throwing in every conceivable point is distracting to
appellate judges, consumes space that should be
devoted to developing the arguments with some
promise, inevitably clutters the brief with issues that
have no chance ... and is overall bad appellate
advocacy.”); Aldisert, supra at 129 (“When I read an
appellant’s brief that contains more than six points,
a presumption arises that there is no merit to any of
them.”)
Nevertheless, we would ordinarily proceed by
evaluating
Appellant’s
preserved
arguments.
However, perhaps due to Appellant’s attempt to
raise such an extraordinary number of issues on
appeal, the resulting brief is, frankly, a convoluted

8a
mess that violates several of the appellate rules. We
need not catalog the violations at length here. We
need only highlight the most egregious violations
and problems.
Importantly, we recognize that
appellate briefs and reproduced records must
materially conform to the Pennsylvania Rules
of Appellate Procedure. This Court may quash
or dismiss an appeal if the appellant fails to
conform to the requirements set forth in the
Pennsylvania Rules of Appellate Procedure.
Commonwealth v. Adams, 882 A.2d 496, 497 (Pa.
Super. 2005) (citations omitted).
Rule 2119 governs the argument section of an
appellate brief. See Pa.RA.P. 2119. The rule
provides^
(a) General rule. The argument shall be
divided into as many parts as there are
questions to be argued; and shall have at the
head of each part"in distinctive type or in
type distinctively displayed--the particular
point treated therein, followed by such
discussion and citation of authorities as are
deemed pertinent.
(b) Citations of authorities. Citations of
authorities in briefs shall be in accordance
with Pa.R.A.P. 126 governing citations of
authorities.

9a
(c) Reference to record. If reference is made to
the pleadings, evidence, charge, opinion or
order, or any other matter appearing in the
record, the argument must set forth, in
immediate connection therewith, or in a
footnote thereto, a reference to the place in the
record where the matter referred to appears
(see Pa.R.A.P. 2132).
(d) Synopsis of evidence. When the finding of,
or the refusal to find, a fact is argued, the
argument must contain a synopsis of all the
evidence on the point, with a reference to the
place in the record where the evidence may be
found.
Pa.R.A.P. 2119(a)-(d).
“This Court will not consider the merits of an
argument which fails to cite relevant legal case or
statutory authority. Failure to cite relevant legal
authority constitutes waiver of this claim on appeal.”
In re Estate of Whitley, 50 A.3d 203, 209 (Pa. Super.
2012) (citations and quotation marks omitted).
While we recognize Appellant is proceeding pro
se in this appeal, we note that, “[although this Court
is willing to construe liberally materials filed by a
pro se litigant, pro se status generally confers no
special benefit upon an appellant.” Commonwealth
v. Lyons, 833 A.2d 245, 251-252 (Pa. Super. 2003).
As such, a pro se litigant must comply with the
requirements as set forth in the Pennsylvania Rules
of Appellate Procedure. See id., at 252.
Our review of Appellant’s brief reveals
substantial and numerous violations of the appellate

10a
rules. Although his brief contains an argument
section, it is not divided “into as many parts as there
are questions to be argued.” Pa.R.A.P. 2119(a).
Appellant raises 23 issues on appeal, but only
divides the argument portion of his brief into five
sections. While some of these sections include
subsections, they are repetitive of previously argued
issues and do not correspond with the issues raised
on appeal.
Additionally, throughout the entirety of his
argument section, Appellant fails to cite to the
record. See Pa.R.A.P. 2119(c)-(d). Instead, claiming
his own recitation of the facts was “verified,”
Appellant cites to his own brief rather than the
record on appeal. See, e.g., Appellant’s Brief, at 59
(“[I]t has been verified previously that [Appellant]
completely complied with the Pennsylvania Rule of
Civil Procedure to serve the 10-day notice ... on
Walters. (This Br. pp. 30-31)”).
Finally, and most importantly, while Appellant’s
brief contains numerous references to case law, it is
devoid of references to relevant case law. See
Pa.R.A.P. 2119(a). The majority of Appellant’s
citations only serve to define legal concepts, exist
outside our jurisdiction, or are entirely wildly
inaccurate statements of the law. See, e.g.,
Appellant’s Brief, at 65 (defining “defense upon the
merits”), 61 (citing “Reshard v. McQueen. 562 So. 2D
811 (Fla. 1st DCA 1990)”)), 62 (citing Frow v. De La
Vega, 82 U.S. 552 (1872) for proposition that
defaulting defendant could not defend a second
amended complaint; in fact, Frow does not
contemplate a second amended complaint). The
remainder of his citations do not support the legal

11a
positions Appellant has taken in his brief. See, e.g.,
Appellant’s Brief, at 59-60 (citing law relating to a
petition to strike in support of his argument that the
trial court erred in granting Walters’s petition to
open). Appellant’s brief, unsupported by references
to the record or citation to relevant authority, does
not provide this Court with any basis upon which to
engage in meaningful appellate review.
Given the numerous problems with Appellant’s
brief, we are constrained to dismiss this appeal.3
Appeal dismissed. Motions denied and denied
without prejudice. Judgment Entered.
/s/Joseph D. Seletvn
Joseph D. Seletyn, Esq.
Prothonotary
Date: 11/2/18

3 On October 5, 2018, Walters filed a “Motion for Cost of
Producing the Supplemental Reproduced Record.” Walters is
entitled to the award of costs. See Pa.R.A.P. 274l(l). The costs
recoverable include the costs of paperbooks (briefs and
reproduced records). See Pa.R.A.P. 2742. However, Walters
should not be seeking costs in this Court. The proper procedure
is to file a bill of costs in the prothonotary of the trial court. See
Pa.R.A.P. 2762(a). See also G. Ronald Darlington, et al., West’s
Pennsylvania Practice, Pennsylvania Appellate Practice §
2762G, at p. 834 (2009-10 ed.) (“Except in cases that have gone
to the Supreme Court, all appellate costs are to be collected in
the lower court in the same manner as costs in the lower court
are normally collected, that is, through a bill of costs.”)
Additionally, on October 12, 2018, Walters filed a “Motion
for Sanctions Against Appellant.” We deny this motion. See
Pa.R.A.P. 2744 (“appellate court may award as further
damages costs).

12a
APPENDIX E
IN THE COURT OF COMMON PLEAS
CHESTER COUNTY, PENNSYLVANIA
CIVIL ACTION - LAW
JENN-CHING LUO
vs.
LOWE'S HOME CENTERS, LLC, JAMES R.
WALTERS and CHRIS S. ERNEST
NO. 2014-09864-RC
Filed: December 27, 2017
Plaintiff, pro se
David S. Cohen, Esquire, Attorney for Defendant
Lowe's Home Centers, LLC
Richard W. Yost, Esquire and Timothy R. Chapin,
Esquire, Attorneys for Defendant James R.
Walters
John J. Bateman Esquire, Attorney for Defendant
Chris S. Ernest.

ORDER
AND NOW, this 27th day of December, 2017 upon
consideration of Plaintiffs Petition to Vacate
Arbitration Award, Defendants' response thereto,
Defendants' Joint Petition to Confirm the
Arbitration ward and Plaintiffs response thereto, it
is hereby ORDERED and DECREED that Plaintiffs

13a
Petition is DENIED. It is further ORDERED and
DECREED that Defendants' Joint Petition is
GRANTED and the arbitrator's award is
CONFIRMED.
BY THE COURT:
/s/JACQEIJUNE C. CODY
JACQUELINE C. CODY P.J.

1 A common law arbitrator's decision may not be vacated or
modified unless it is clearly shown that a party was denied a
hearing or that fraud, misconduct, corruption or other
irregularity caused the rendition of an unjust, inequitable or
unconscionable award. 42 Pa.C.S.A.§7341

14a
APPENDIX F
IN THE COURT OF COMMON PLEAS
CHESTER COUNTY, PENNSYLVANIA
CIVIL ACTION - LAW
JENN-CHING LUO
vs.
LOWE'S HOME CENTERS, LLC, JAMES R.
WALTERS and CHRIS S. ERNEST
NO. 2014-09864-RC
Filed: January 3, 2017
Plaintiff, pro se
David S. Cohen, Esquire, Attorney for Defendant
Lowe's Home Centers, LLC
Richard W. Yost, Esquire and Timothy R. Chapin,
Esquire, Attorneys for Defendant James R.
Walters
John J. Bateman Esquire, Attorney for Defendant
Chris S. Ernest.

ORDER
AND NOW, this 3rd day of January, 2017, upon
consideration of Defendant James R. Walters' Motion
to Compel Arbitration and to Dismiss Plaintiffs
Second Amended Complaint, Plaintiffs response
thereto and Defendant's sur-reply, it is hereby
ORDERED and DECREED that Plaintiffs claims

15a
against Defendant James R. Walters shall proceed to
binding arbitration. i
BY THE COURT:
/s/JACQITELINE C. CODY
JACQUELINE C. CODY P.J.

1 Where a party seeks to compel arbitration, judicial inquiry
is limited to determining: (l) whether a valid agreement to
arbitrate exists between the parties and, if so, (2) whether the
dispute involved is within the scope of the arbitration provision.
Callan v. Oxford Land Development. Inc.. 858 A.2d 1229 (Pa.
Super. 2004), citing, Highmark. Inc, v. Hospital Service
Association of Northeastern Pennsylvania. 783 A.2d 93 (Pa.
Super. 2001). In addition, when there is an unlimited
arbitration clause, any dispute which may arise between the
parties concerning the principal contract is to he settled
pursuant to its terms. McCarl's. Inc, v. Beaver Falls Municipal
Authority. 847 A.2d 180, 184 (Pa. Super. 2004). The provision
at issue states: “This Contract provides that all claims by
Customer [Plaintiff] or Lowe's will be resolved by BINDING
ARBITRATION.” Plaintiff asserts that the provision binds
Lowe's and not Defendant. However, a fair reading of Plaintiffs
Second Amended Complaint reveals Plaintiffs assertion that
Defendant was acting as Lowe’s agent and therefore, the
arbitration provision includes Plaintiffs claims against
Defendant. In addition, the documents attached to Plaintiffs
Second Amended Complaint reference Lowe's authorized
installers.

16a
APPENDIX G
IN THE COURT OF COMMON PLEAS
CHESTER COUNTY, PENNSYLVANIA
CIVIL ACTION - LAW
JENN-CHING LUO
vs.
LOWE'S HOME CENTERS, LLC, JAMES R.
WALTERS and CHRIS S. ERNEST
NO. 2014-09864-RC
Filed: September 7, 2016
Plaintiff, pro se
David S. Cohen, Esquire, Attorney for Defendant
Lowe's Home Centers, LLC
Richard W. Yost, Esquire and Timothy R. Chapin,
Esquire, Attorneys for Defendant James R.
Walters
John J. Bateman Esquire, Attorney for Defendant
Chris S. Ernest.

ORDER
AND NOW, this 7th day of September, 2016, upon
consideration of Plaintiffs Motion to Enter Default
Judgment Against Defendants Lowe's Home
Centers, LLC and Chris S. Ernest, both Defendants'
response thereto and supplemental briefs filed by all
three parties, it is hereby ORDERED and

17a
DECREED that Plaintiffs Motion is DENIED.
BY THE COURT:
/s/JACQIJELTNE C. CODY
JACQUELINE C. CODY P.J.

1 Plaintiff argues that he is entitled to a default judgment
against Defendants Lowe's Home Centers, LLC and Chris S.
Ernest because they have failed to ask the court to stay this
action pending arbitration and that they have instead stayed
the arbitration by themselves. We find Plaintiffs arguments
meritless. In addition, Plaintiff has once again made
disparaging remarks about Defendant Chris S. Ernest's
counsel. Plaintiff has been cautioned about this behavior.

18a
APPENDIX H
IN THE COURT OF COMMON PLEAS
CHESTER COUNTY, PENNSYLVANIA
CIVIL ACTION - LAW
JENN-CHING LUO, Plaintiff
vs.
LOWE'S HOME CENTERS, LLC, JAMES R.
WALTERS and CHRIS S. ERNEST
Defendants
NO. 2014-09864
Filed: August 8, 2016
Plaintiff, pro se Plaintiff
David S. Cohen, Esquire, on behalf of Lowe's
Home Centers, LLC
Richard W. Yost, Esquire and Timothy R. Chapin
Esquire, on behalf of Defendant James R.
Walters
John J. Bateman Esquire, on behalf of Chris
S. Ernest.

ORDER
AND NOW, this 8th day of August, 2016, upon
consideration of Defendant James R. Walters'
Petition to Strike and/or Open Default Judgment
and response thereto, it is hereby ORDERED and

19a
DECREED that the motion is GRANTED.1 The
default judgment entered January 13, 2015 against
James R. Walters is OPENED. Defendant James R.
Walters shall have twenty (20) days from the date of
this Order to file an Answer to Plaintiffs Second
Amended Complaint.

1 A petition to open a default judgment is an appeal to the
equitable powers of the court. Allegheny Hydro No. 1 v.
American Line Builders. Inc.. 722 A.2d 189 (Pa. Super. 1998). A
petition to open a default judgment may be granted where the
party has “(l) promptly filed a petition to open; (2) provided a
reasonable excuse or explanation for failing to file a responsive
pleading,' and (3) pleaded a meritorious defense to the
allegations contained in the complaint.” Mvers v. Wells Fargo
Rank. N.A.. 986 A.2d 171, 176 (Pa. Super. 2009). In
determining whether the petition has been promptly filed, the
court does not apply a bright line test, but focuses on the length
of delay between discovery of the entry of a default judgment
and filing the petition to open judgment and the reason for the
delay. Allegherv Hydro No. 1. at 193. “Whether an excuse is
legitimate is not easily answered and depends upon the specific
circumstances of the case.” Castings Condominium Association
v. Klien. 444 Pa. Super. 68, 74, 663 A.2d 220, 223-224 (1995).
Where the failure to file a responsive pleading was due to an
oversight, an unintentional omission to act, or a mistake of the
rights and duties of the defendant, the default judgment may
be opened. Flvnn v. America West Airlines. 742 A.2d 695 (Pa.
Super. 1999). “Excusable negligence must establish an
oversight rather than a deliberate decision not to defend.”
Duckson v. Wee Wheelers 423 Pa. Super. 251, 259, 620 A.2d
1206, 1211 (1993) (citations omitted). The decision to grant or
deny a petition to open a default judgment is within the sound
discretion of the trial court. Allegheny Hydro No. 1. at 191.
A review of the record reveals the following facts. The original
Complaint was filed on October 3, 2015 and served upon
Defendant's girlfriend on December 2, 2014. Although
Defendant claims his girlfriend did not give the Complaint to

20a
BY THE COURT:
/s/JACQUELINE C. CODY
JACQUELINE C. CODY P.J.

Defendant, service was proper pursuant to Pa.R.C.P. 402(a)(2)
(i). Defendant did not file a timely answer and Plaintiff entered
a default judgment against Defendant on January 13, 2016 (sic
2015).
On April 2, 2015, Plaintiff filed an Amended Complaint and
on May 6, 2015, Plaintiff filed a Second Amended Complaint.
Defendant filed Preliminary Objections to Plaintiffs Second
Amended Complaint on July 14, 2015. Plaintiff filed a Motion
to Dismiss Defendant's Preliminary Objections on July 23,
2015. The Court dismissed Plaintiffs Motion to Dismiss
Preliminary Objections on October 13, 2015 and sustained
Defendant's Preliminary Objections by Order dated November
5, 2015. On November 10, 2015, Plaintiff sought
reconsideration of the Court's November 5, 2015 Order based
upon the default judgment entered on January 13, 2015.
Reconsideration was granted on December 28, 2015 and the
November 5, 2015 Order was vacated. On February 29, 2016
Defendant filed a petition to open and/or strike the default
judgment.
The evidence of record shows that Defendant timely filed his
petition to open and provided a reasonable excuse for failing to
file an answer. Defendant claims that he never received the 10*
day notice required under Pa.R.C.P.237.l(a)(2)(ii); therefore, he
had no reason to know that a default judgment had been
entered against him. This is evidenced by Defendant's filing of
preliminary objections to Plaintiffs Second Amended
Complaint on July 14, 2015. Once Plaintiff filed the Second
Amended Complaint, the original Complaint was rendered a
nullity. See, Brooks v. T&R Touring Company. 939 A.2d 398
(Pa. Super. 2007); Reichert v. TRW. Inc.. Cutting Tools
Division. 531 Pa. 193, 611 A.2d 1191 (1992). The Second

21a

Amended Complaint named James R. Walters as a defendant
and raised additional allegations against Defendant that were
not raised in the original Complaint.
Plaintiff argues that Defendant's petition was not promptly
filed because Defendant knew about the default judgment in
October 2015 when Plaintiff filed his administrative conference
memo, but waited four months before filing his petition to open
and/or strike the judgment. Plaintiffs argument is without
merit. Although Defendant discovered in October 2015 that a
default judgment had been entered against him, he did not seek
to open and/or strike the judgment at that time because the
Second Amended Complaint had been filed and a determination
on the outstanding preliminary objections had not been made.
We further note that Plaintiff filed a Motion to Dismiss
Defendant's Preliminary Objections on July 23, 2015 and never
averred that a default judgment had been entered against
Defendant in January 2013 (Sic 2015). Nor did Plaintiffs
response to Defendant's preliminary objections raise this fact.
Finally, Defendant provided evidence of a meritorious defense
to the claims raised by Plaintiff including breach of
contract/warranty, negligence, violation of the Unfair Trade
Practices and Consumer Protection Law, 75 P.S. §§201*1 et
seq., negligent and intentional infliction of emotional distress
and punitive damages. (Defendant's Petition to Open/Strike
Default Judgment,
94-117). The condition that a petition to
open a default judgment contain a meritorious defense requires
only that a defense must be pleaded that if provided at trial
would justify relief. ABG Promotions v. Parkway Pub. Inc.. 834
A.2d 613, 617-18 (Pa. Super. 2003) (Citations omitted)
We find that Plaintiff will not be harmed or suffer prejudice if
Defendant is permitted to file an Answer at this time. The

22a

pleadings just recently closed and discovery has not been
completed. No depositions have been takes and no expert
reports have been prepared. Plaintiffs Second Amended
Complaint raises allegations that were not contained in the
original Complaint; therefore, if any party were to suffer
prejudice, it would be Defendant. Although prejudice is not a
separate element to be examined by this Court,
[W]here some showing has been made with
regard to each part of the test, a court should
not blinder itself and examine each part as
through it were a water-tight compartment, to
be evaluated in isolation from other aspects of
the case. Instead, the court should consider
each part in the light of all the circumstances
and equities of the case.
Allegheny Hydro No. 1. at 192. However, where the defendant
fails to estabhsh all three elements of the test to open a default
judgment, the court cannot open the default judgment based
upon equities. Dumoff v. Spencer. 754 A.2d 1280, 1283 (Pa.
Super. 2000), citing Allegheny Hydro No. 1. at 191-92. Because
Defendant did not delay in filing a petition to open default,
provided a meritorious defense, made “some showing” of a
reasonable excuse for failure to timely file an answer, and
Plaintiff will not suffer any prejudice by allowing Defendant to
defend against these claims, the equities require the opening of
the default judgment. Where the equities warrant opening a
default judgment, appellate courts will not hesitate to find an
abuse of discretion where the default judgment is not opened.
Reid v. Boohar. 856 A.2d 156, 159 (Pa. Supper. 2004) (Citations
omitted).

23a
APPENDIX I
IN THE COURT OF COMMON PLEAS
CHESTER COUNTY, PENNSYLVANIA
CIVIL ACTION - LAW
JENN-CHING LUO
vs.
LOWE'S HOME CENTERS, LLC, JAMES R.
WALTERS and CHRIS S. ERNEST
NO. 2014-09864-RC
Filed: January 11, 2016
Plaintiff, pro se
Jennifer M. Herrmann, Esquire, Attorney for
Defendant Lowe's Home Centers, LLC
Richard W. Yost, Esquire and Timothy R. Chapin,
Esquire, Attorneys for Defendant James R.
Walters
John J. Bateman Esquire, Attorney for Defendant
Chris S. Ernest.

ORDER
AND NOW, this 11th day of January, 2016, upon
consideration of Defendant Chris Ernest's Motion to
Compel Binding Arbitration, Plaintiffs response
thereto and Defendant's Supplemental Reply, it is
hereby ORDERED and DECREED that the Motion
is GRANTED and Plaintiffs claim against

24a
Defendant Chris Ernest shall proceed to binding
arbitration. i
BY THE COURT:
/s/JACQUELINE C. CODY
JACQUELINE C. CODY P.J.

1 Where a party seeks to compel arbitration, judicial inquiry
is limited to determine: (l) whether a valid agreement to
arbitrate exists between the parties and, if so, (2) whether the
dispute involved is within the scope of the arbitration provision.
Gallan v. Oxford Land Development. Inc.. 858 A.2d 1229 (Pa.
Super. 2004), citing, Highmark. Inc, v. Hospital Service
Association of Northeastern Pennsylvania. 783 A.2d 93 (Pa.
Super. 2001). In addition, when there is an unlimited
arbitration clause, any dispute which may arise between the
parties concerning the principal contract is to be settled
pursuant to its terms. McCarl's. Inc, v. Beaver Falls Municipal
Authority. 847 A.2d 180, 184 (Pa. Super. 2004). The provision
at issue states: “This Contract provides that all claims by
Customer [Plaintiff] or Lowe's will be resolved by BINDING
ARBITRATION.” Plaintiff asserts that the provision binds
Lowe's and not moving Defendant. However, Plaintiff admits
that moving Defendant is Lowe's employee and therefore, we
find that the arbitration provision includes Plaintiffs claims
against moving Defendant. Plaintiff asserts that moving
Defendant has waived his right to arbitration. The waiver of
the right to proceed to arbitration pursuant to the terms of a
contract containing an arbitration provision should not be
lightly inferred and unless the party's conduct has gained him
an unfair advantage or resulted in prejudice to the other party,
the party advocating for arbitration should not be held to have
relinquished that right. Keystone Technology Group. Inc, v.
Kerr Group. Inc.. 824 A.2d 1223 (Pa. Super. 2003). We find that
moving Defendant has not waived his right to request
arbitration.

25a
APPENDIX J
IN THE COURT OF COMMON PLEAS
CHESTER COUNTY, PENNSYLVANIA
CIVIL ACTION - LAW
JENN-CHING LUO
vs.
LOWE'S HOME CENTERS, LLC, JAMES R.
WALTERS and CHRIS S. ERNEST
NO. 2014-09864-RC
Filed: October 13, 2015
Plaintiff, pro se
Jennifer M. Herrmann, Esquire, Attorney for
Defendant Lowe's Home Centers, LLC
Richard W. Yost, Esquire and Timothy R. Chapin,
Esquire, Attorneys for Defendant James R.
Walters
John J. Bateman Esquire, Attorney for Defendant
Chris S. Ernest.

ORDER
AND NOW, this 13th day of October, 2015, upon
consideration of Defendant Lowe's Home Centers,
LLC's Preliminary Objections to Plaintiffs Second
Amended Complaint and Plaintiffs response thereto,
it is hereby ORDERED and DECREED that
Plaintiffs claims against objecting Defendant shall

26a
proceed to binding arbitration. i
BY THE COURT:
/s/JACQUELINE C. CODY
JACQUELINE C. CODY P.J.

1 Where a party seeks to compel arbitration, judicial inquiry
is limited to determining: (l) whether a valid agreement to
arbitrate exists between the parties and, if so, (2) whether the
dispute involved is within the scope of the arbitration provision.
Gallan v. Oxford Land Development. Inc.. 858 A.2d 1229 (Pa.
Super. 2004), citing, Highmark. Inc, v. Hospital Service
Association of Northeastern Pennsylvania. 783 A.2d 93 (Pa.
Super. 2001). In addition, when there is an unlimited
arbitration clause, any dispute which may arise between the
parties concerning the principal contract is to be settled
pursuant to its terms. McCarl's. Inc, v. Beaver Falls Municipal
Authority. 847 A.2d 180, 184 (Pa. Super. 2004). The provision
at issue states: “This Contract provides that all claims by
Customer [Plaintiff] or Lowe's will be resolved by BINDING
ARBITRATION.” Plaintiff asserts that only its claim for
violation of the UPTCPL sounds in contract and that the
remaining counts sound in tort. This argument was rejected by
the Superior and Supreme Courts in Shadduck v. Christopher
J. Kaclik. Inc.. 713 A.2d 635 (Pa. Super. 1998); Borough of
Ambridge Water Authority v. Columbia. 458 Pa. 546, 328 A.2d
498 (1974). Given our resolution of this Objection, we do not
reach Defendant's other objections.

27a
APPENDIX K
AMERICAN ARBITRATION ASSOCIATION
In the Matter of the Arbitration Between:
Jenn-Ching Luo (Claimant)
vs.
Lowes Home Centers, LLC, James R. Walters and
Chris S. Ernest (Respondents)
Case Number: 01-17-00004112
Filed: July 12, 2017

AWARD OF ARBITRATOR
I, Kevin G. Amadio, THE UNDERSIGNED
ARBITRATOR,
having
been
designated
in
accordance with the arbitration agreement, dated
May 12, 2014, entered into between the above-named
Parties, with Claimant appearing pro se, and with
Respondent Lowes Home Centers, LLC represented
by David Cohen from Mintzer, Sarowitz, Zeris,
Ledva & Meyers, and with Respondent James R.
Walters represented by Timothy Chapin from Yost &
Tretta, LLP, and with Respondent Chris S. Ernest
represented by John Bateman from Lavin O'Neil
Cedrone & Disipio, and having been duly sworn, and
having duly heard the proofs and allegations of the
Parties at an in-person hearing in Blue Bell, PA, on
July 7, 2017, do hereby, FIND, as follows:
1. Claimant's claim against the Respondent Lowes

28a
Home Centers, LLC for breach of contract is
AWARDED in the amount of $2,034.07. All other
damages claimed by Claimant for breach of
contract against Respondent Lowes Home
Centers, LLC are DENIED. All other claims by
Claimant against Respondent Lowes Home
Centers, LLC, including claims for negligence
and violation of the Pennsylvania Unfair Trade
Practice
and
Consumer
Protection
Law
(“UTPCPL”), are DENIED.
2. Claimant's claim against Respondent James R.
Walters for negligence is AWARDED in the
amount of $2,034.07. All other damages claimed
by Claimant for negligence against Respondent
James R. Walters are DENIED. All other claims
by Claimant against Respondent James R.
Walters, including claims for breach of contract
and violation of the UTPCPL, are DENIED.
3. All of Claimant's claims against Respondent
Chris S. Ernest, including claims for breach of
contract, negligence, and violation of the
UTPCPL, are DENIED.
4. The amount awarded against Respondents Lowes
Home Centers, LLC and James R. Walters are
the same damages for the same loss, and I
consequently find that these two Respondents are
jointly and severally liable for the amount
awarded.
5. Respondent Chris S. Ernest's counterclaim is
DENIED.

29a

6. The arbitration fees and arbitrator compensation
and expenses are apportioned elsewhere in this
Award.
7. At the hearing, all parties stipulated and agreed
that Kolb Roofing Company was not a party to
the arbitration and this Award makes no finding
as to that entity.
Accordingly, I AWARD as follows:
Respondents Lowes Home Centers, LLC
and James R. Walters, or either of them,
shall pay to Claimant the sum of Two
Thousand Thirty-Four Dollars and Seven
Cents ($2,034.07), and shall be jointly
and severally liable for such payment.
The amount of $2,034.07 represents the
total sum due to Claimant.
The administrative fees of the American Arbitration
Association totaling Nine Thousand Eight Hundred
Fifty Dollars and Zero Cents ($9,850.00), originally
paid by Respondent Lowes Home Centers, LLC and
Respondent Chris S. Ernest, shall be borne as
incurred, per this Award. The compensation of the
arbitrator totaling Eight Thousand Two Hundred
Eighty-Seven Dollars and Fifty Centers ($8,287.50),
originally paid solely by Respondents, shall be borne
as incurred, per this Award.
This Award is in full settlement of all claims and
counterclaims submitted to this Arbitration. All

30a
claims not expressly granted herein are hereby,
denied.

/s/ Kevin G. Amadio_________
Arbitrator Kevin G. Amadio, Esq.
July 12, 2017

